                          UNITED STATES DEPARTMENT OF EDUCATION 

                3              OFFICE OF INSPECTOR GENERAL 

                                           501 I STREET, SUITE 9-200
                                       SACRAMENTO, CALIFORNIA 95814
                                     PHONE (916) 930-2388 · FAX (916) 930-2390




                                                       March 26, 2007

                                                                                                          Control Number
                                                                                                          ED-OIG/A09G0020

Mr. Tom Horne
Superintendent of Public Instruction
Arizona Department of Education
1535 West Jefferson Street, Bin 2
Phoenix, Arizona 85007

Dear Superintendent Horne:

This Final Audit Report, entitled Arizona Department of Education’s Oversight of the ESEA,
Title I, Part A Comparability of Services Requirement, presents the results of our audit. The
purpose of the audit was to determine whether the Arizona Department of Education (ADE)
monitored local educational agencies’ (LEA) compliance with the Title I, Part A Comparability
of Services provision and ensured that the LEAs were reporting complete and accurate
comparability information to ADE. Our review covered the period July 1, 2004 through
June 30, 2006. At the LEAs, we limited our detailed review to school year 2005-2006.
However, we did obtain comparability information covering school year 2004-2005 to ensure
that the LEAs were performing comparability determinations annually.




                                                   BACKGROUND 



Title I, Part A of the Elementary and Secondary Education Act (ESEA) of 1965, as amended by
the No Child Left Behind Act of 2001, provides grants to state educational agencies (SEA) to
provide supplemental funding to elementary and secondary schools with high concentrations of
students from low-income families. SEAs allocate most of these grant funds to LEAs for the
provision of supplemental instructional services to students.

Section 1120A(c)(1) of the ESEA stipulates that an LEA may receive Title I, Part A funds only if
it uses state and local funds to provide services in Title I schools that, taken as a whole, are at
least comparable to the services provided in schools not receiving Title I funds. If the LEA
serves all of its schools with Title I funds, the LEA must use state and local funds to provide

          Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A09G0020                                                                                   Page 2 of 35
services that, taken as a whole, are substantially comparable in each Title I school. Because Title
I funds are allocated to LEAs annually, LEAs must demonstrate comparability annually.1 They
are expected to perform comparability determinations early in the school year so that resource
adjustments can be made as early as possible to correct instances of non-comparability among
schools.

Section 1120A(c)(1)(C) of the ESEA allows LEAs to determine comparability either on a grade
span basis or a school-by-school basis within the LEA. Section 1120A(c)(2)(A) states that an
LEA may demonstrate comparability by submitting written assurances to the SEA that it has
implemented (1) a district-wide salary schedule, (2) policies to ensure equivalence among
schools in teachers, administrators, and other staff, and (3) policies to ensure equivalence among
schools in the provision of curriculum materials and instructional supplies. Alternatively, an
LEA may demonstrate comparability by implementing measures of comparability, such as the
student to instructional staff ratio or the student to instructional staff salary ratio.2 Furthermore,
Section 1120A(c)(3)(B) of the ESEA requires LEAs to maintain records, that are updated at least
biennially, documenting their compliance with the comparability provision.

The State of Arizona has more than 200 public school LEAs and more than 350 charter school
LEAs. The ADE allocated Title I, Part A grants totaling $241.7 million and $263.4 million to
LEAs in school years 2004-2005 and 2005-2006, respectively. ADE requires each LEA to
submit an Assurance of Comparability at least every other year, certifying that its schools are
comparable or that the LEA is exempt from the comparability requirement. The Academic
Achievement Division within the ADE is responsible for monitoring LEAs’ compliance with the
comparability requirement.

The table below provides information on the three LEAs that were selected for onsite reviews as
part of the audit.

                       Information on LEAs Selected for Onsite Reviews
                                                              School Year 2005-2006
                            LEA                            Title I     Total     Title I
                                                         Allocation Schools     Schools
    Amphitheater Public Schools (Amphitheater)           $3,064,703        20           10
    Chandler Unified School District (Chandler)          $2,991,584        35            5
    Mesa Public Schools (Mesa)                          $13,035,121        90           44




1
  The U.S. Department of Education’s revised comparability guidance, Non-Regulatory Guidance – Title I Fiscal
Issues, (May 2006) clarifies that comparability is an annual requirement.
2
 The U.S. Department of Education’s Policy Guidance for Title I, Part A: Improving Basic Programs Operated by
Local Educational Agencies, (April 1996) describes these two methods as alternatives to the written assurance
method.
Final Report
ED-OIG/A09G0020                                                                     Page 3 of 35


                                     AUDIT RESULTS 



ADE provided LEAs with detailed guidelines and instructions on how to perform annual
comparability determinations, and refined and clarified these materials each year to help ensure
that LEAs properly implemented comparability. ADE required LEAs to document compliance
with the comparability requirement earlier in the school year when it moved the date LEAs must
submit the Assurance of Comparability from January 14, 2005 for school year 2004-2005 to
November 30, 2006 for school year 2006-2007. The earlier submission date requires LEAs to
test comparability and make resource adjustments to correct comparability imbalances earlier in
the school year.

However, ADE needs to strengthen its monitoring of LEA compliance with the comparability
requirement. ADE also needs to ensure that the three LEAs reviewed as part of our audit are
performing comparability determinations properly, including the use of appropriate and correct
data.

ADE did not explicitly express concurrence with our findings in its comments to the draft report,
but it did describe the corrective actions taken or planned to address our recommendations.
ADE’s comments are summarized at the end of each finding and the full text of the comments is
included as Attachment 2 to the report.


FINDING NO. 1 – ADE Needs to Strengthen Monitoring of LEA Compliance with
                the Comparability Requirement

ADE does not routinely verify that LEAs claiming to be exempt from the comparability
requirement made the correct assessments of their comparability status, nor does ADE regularly
ensure that LEAs receiving Title I funds submitted an Assurance of Comparability at least every
other year to document compliance with the comparability requirement. In addition, ADE’s
existing LEA monitoring program and other mechanisms it relies on to monitor implementation
and compliance are not sufficient because they are not performed frequently enough, are
performed late in the school year or after the school year has ended, and/or are not
comprehensive enough to determine whether LEAs properly implemented the requirement.
Furthermore, ADE has not determined whether LEAs have developed procedures for making
necessary resource adjustments when non-comparable schools are identified.

Under the Uniform Administrative Requirements For Grants And Cooperative Agreements To
State And Local Governments, 34 C.F.R. § 80.40(a), grantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor grant
and subgrant supported activities to assure compliance with applicable Federal requirements and
that performance goals are being achieved. Grantee monitoring must cover each program,
function or activity.
Final Report
ED-OIG/A09G0020                                                                                         Page 4 of 35
Procedures Are Needed To Ensure That LEAs
Claiming “Exempt” Make Correct Assessments

In its Comparability Workbook distributed to LEAs, ADE requires each LEA to perform a
self-assessment to determine whether it is required to calculate comparability or is exempt from
the requirement. LEAs are required to document the results of the self-assessment on a form
provided by ADE. In school year 2005-2006 LEAs were required to certify that the information
is correct. However, ADE has not implemented a process to regularly verify that LEAs claiming
to be exempt make the correct assessment. According to the U.S. Department of Education’s
(Department) Policy Guidance for Title I, Part A: Improving Basic Programs Operated by Local
Educational Agencies – Fiscal Requirements (April 1996), LEAs that have only one school per
grade span are exempt from the comparability requirement. The Department’s guidance and
ADE’s Comparability Workbook also allow an LEA to exclude any school with 100 or fewer
students from comparability determinations. This exclusion can result in an LEA being exempt.
For example, if an LEA only serves elementary students at two schools and one has 100 or fewer
students it would not be required to calculate comparability for its elementary schools.

In the one instance (school year 2004-2005) in which ADE did review LEA comparability status,
it identified four LEAs that improperly reported their status as exempt. These LEAs should have
performed a comparability determination in school year 2004-2005. The total amount of Title I
funds allocated to these four LEAs was $4,129,628 in school year 2004-2005.3 We found no
evidence that ADE notified these LEAs of their incorrect self-assessments or that ADE required
the LEAs to perform comparability determinations upon determining that the LEAs were not
exempt. As a result, ADE cannot ensure that the Title I schools at these LEAs were comparable
to the non-Title I schools. ADE did not review the accuracy of LEA self-assessments in school
year 2005-2006.

Procedures Are Needed To Ensure That LEAs
Submit Biennial Assurances of Comparability

Section 1120A(c)(3)(B) of the ESEA requires each LEA to maintain records that are updated at
least biennially documenting its compliance with the comparability provision. To meet this
requirement, ADE requires each LEA to submit an Assurance of Comparability at least every
other year, certifying that its schools are comparable or that the LEA is exempt from the
comparability requirement.4 However, ADE does not have procedures to routinely confirm that
LEAs are submitting the required Assurance of Comparability and cannot ensure that LEAs are
documenting compliance with the comparability requirement every other year. We found that
nine LEAs that received Title I funding allocations totaling more than $5.7 million in school year
2005-2006 did not submit an Assurance of Comparability for at least two consecutive years
during the period covering school year 2003-2004 to school year 2005-2006. ADE was not
aware that these LEAs had not complied with the reporting requirement.




3
 The specific LEAs’ allocations are as follows: Cottonwood-Oak Creek Elementary - $659,156; Parker Unified -
$704,449; Somerton Elementary - $1,329,663 and Window Rock Unified - $1,436,360.
4
 If an LEA certifies that its schools are comparable it must also identify the method(s) it used to test and
demonstrate comparability.
Final Report
ED-OIG/A09G0020                                                                                      Page 5 of 35
Comparability Monitoring Efforts
Need to be Enhanced

The Federal regulations at 34 C.F.R. § 80.40(a) require ADE to regularly monitor LEA
operations, including their implementation of, and compliance with, the ESEA’s comparability
provision. The Department also requires SEAs to review LEA comparability determinations at
least every other year. However, ADE’s monitoring program, reliance on single audits, and
one-time review are not sufficient to provide adequate oversight over LEA compliance with the
comparability requirement.

• 	 ADE’s LEA monitoring program covers the comparability requirement only once every six
    years when ADE personnel are on-site at the LEAs. This level of monitoring is not frequent
    enough to assure that LEAs are complying with the annual comparability requirement. In
    addition, the on-site comparability monitoring is not comprehensive enough to assure
    compliance. During the period covered by our review, ADE personnel confirmed only that
    LEAs had completed the Assurance of Comparability when conducting on-site monitoring.
    Monitoring personnel did not (1) determine whether an LEA had established procedures for
    compliance with the comparability provision, (2) evaluate whether the LEA properly
    determined its comparability status (exempt versus non-exempt), (3) ensure that LEAs
    maintained adequate documentation to support comparability calculations, or (4) review an
    LEA’s comparability calculations or supporting documentation. ADE has revised its school
    year 2006-2007 monitoring protocol to include steps to confirm that LEAs have developed
    written comparability procedures and that LEAs have completed the comparability
    worksheets, if required. However, ADE has not increased the frequency of the reviews and
    the revised monitoring protocol does not include a confirmation that appropriate LEA records
    support data in the comparability worksheets.

• 	 ADE also relies on reports issued by external auditors, resulting from audits performed under
    the Single Audit Act of 1984, as amended, to monitor LEA compliance with the
    comparability requirement. However, ADE’s reliance on these audits to provide oversight
    over LEAs’ comparability processes is not adequate.5 ADE’s guidelines instructed LEAs to
    perform comparability testing and make any needed corrections early in the school year.
    ADE’s Comparability Guidelines for school year 2006-2007 state “[d]ata for determining
    comparability should be compiled as early in the school year as possible so that adjustments,
    if needed, can be made quickly.” Single audits are typically performed after the school year
    has ended. Thus, LEAs would not be in a position to correct comparability imbalances
    identified as a result of these audits. Furthermore, single audits may not cover the
    comparability requirement every year and LEAs expending less than $500,000 in Federal
    funds in any year are exempt from the single audit requirement.




5
  The Department’s revised comparability guidance, Non-Regulatory Guidance – Title I Fiscal Issues, (May 2006)
states that reliance on single audits is not adequate because it does not allow an SEA to determine whether an LEA
has met the comparability requirement within the time frame for allocating Title I funds and for the LEA to correct
any non-compliance.
Final Report
ED-OIG/A09G0020                                                                       Page 6 of 35
• 	 According to an ADE official, ADE’s Academic Achievement Division performed a
    one-time review when it required about 70 LEAs to submit comparability worksheets for
    their school year 2004-2005 comparability determinations. However, ADE did not have
    standard procedures for reviewing the worksheets and did not require the LEAs to submit
    supporting documentation. Thus, ADE’s reviews were not complete. Our review of 10 of
    these LEA files disclosed that some LEAs submitted supporting documentation to ADE, but
    in most cases the additional documentation was not adequate to fully assess LEA
    compliance. Our review also found that ADE’s reviews were inconsistent and were
    generally inadequate to assess whether LEAs were in compliance. In addition, ADE’s
    review occurred late in the school year, which would have delayed corrective action on the
    part of LEAs if problems were found.

Because ADE’s comparability monitoring is not sufficient, it cannot ensure that LEAs are
performing complete and accurate comparability determinations and thus cannot ensure that the
resources provided from state and local sources are comparable at Title I schools. Our detailed
reviews at three LEAs found that (1) all three LEAs used incorrect or inappropriate data when
performing their comparability determinations, (2) one LEA used budgeted, rather than actual,
staffing data to calculate comparability, (3) another LEA did not maintain documentation to
support the staffing component of its determination, and (4) another LEA excluded an entire
grade span using one method and excluded staff salary expenditures using another method, but
still certified its schools were comparable under these methods. The results of our detailed
reviews at the three LEAs are presented in Finding 2.

Oversight When LEAs Identify
Non-Comparable Schools Needs Improvement

ADE requires LEAs to follow local procedures to correct comparability imbalances. The ADE
was notified by one LEA we reviewed (Amphitheater) that it had identified a non-comparable
school after revising its comparability calculations at ADE’s direction. However, we found no
evidence that ADE followed up with the LEA to verify that the appropriate adjustments were
made to correct the imbalance. In addition, the LEA did not maintain adequate documentation to
show that the necessary resource adjustments had been made. Another LEA’s (Chandler)
comparability procedures allow it to make resource adjustments as late as the beginning of the
second semester to correct imbalances at non-comparable schools.

ADE has not developed any procedures for monitoring the actions taken by LEAs to correct
imbalances, even though it is responsible for monitoring all programs, functions, and activities of
LEAs that involve the use of Federal funds. ADE’s school year 2005-2006 Assurance of
Comparability provided LEAs with an opportunity to certify that an imbalance had been
corrected to ensure that state and local funds are comparable across all schools. However, this
certification is optional on the part of LEAs. The lack of monitoring of LEA resource
adjustments, when required, prevents ADE from exercising appropriate oversight over situations
in which non-comparable schools are identified. As a result, ADE cannot ensure that LEAs
make the proper resource adjustments when non-comparable schools are identified.
Final Report
ED-OIG/A09G0020                                                                      Page 7 of 35
Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require the
ADE to —

1.1 	   Require the four LEAs that incorrectly assessed their comparability status as exempt to
        perform comparability determinations and provide sufficient and verifiable
        documentation to support compliance with the comparability of services requirement. If
        the LEAs cannot demonstrate comparability at all schools or fail to provide the required
        documentation to support compliance, ADE should return to the Department that portion
        of the $4,129,628 in Title I, Part A funds applicable to any LEA’s schools that failed to
        demonstrate comparability in school year 2004-2005.

1.2 	   Implement procedures to ensure that LEAs claiming to be exempt from performing a
        comparability determination have made the correct assessment.

1.3 	   Implement procedures to confirm that all LEAs are submitting the required Assurance of
        Comparability at least every other year.

1.4 	   Implement a biennial process for reviewing LEA comparability determinations, including
        the development of specific review guidelines that require confirmation that data used in
        the determinations are supported by appropriate LEA records.

1.5 	   Monitor the actions taken by LEAs when ADE becomes aware of situations in which
        non-comparable schools have been identified.

ADE Comments and OIG Response

ADE commented on each of our recommendations and described the corrective actions taken or
planned. When ADE disagreed or only partially concurred with a recommendation, or in cases
where we determined ADE’s corrective action may not be sufficient, we have provided a
response.

Recommendation 1.1. ADE stated that the four LEAs have prepared preliminary comparability
determinations and submitted documentation. As part of its comments, ADE provided a
summary report containing information on the LEAs’ schools and stated that LEAs are working
cooperatively with ADE to determine whether the comparability requirement was met. ADE
stated that three of the four LEAs have submitted their comparability procedures.

OIG Response. The summary report provided with ADE’s comments appears to provide
information for school year 2005-2006. Since our recommendation covers school year
2004-2005, we are concerned that ADE and the four LEAs may not be using information for the
appropriate school year in responding to the recommendation. The Department needs to ensure
that ADE and the LEAs are evaluating comparability for the proper period and that ADE informs
the Department of the comparability status of the four LEAs once the determinations are
completed for school year 2004-2005. The Department should also consider requiring ADE to
submit comparability materials (i.e., LEA profiles, comparability worksheets, and supporting
Final Report
ED-OIG/A09G0020                                                                                     Page 8 of 35
documentation) to the Department so that an independent review of the comparability
calculations can be performed.

Recommendations 1.2 and 1.3. ADE stated that procedures are in place to address these
recommendations. ADE will perform queries of its data systems to 1) verify information
reported by LEAs claiming to be exempt from the comparability requirement and 2) confirm that
LEAs required to file an Assurance of Comparability have provided the submission. ADE also
identified specific procedures for follow-up with LEAs when inaccurate or non-reporting occurs.

Recommendation 1.4. ADE proposes to meet the biennial monitoring requirement by
performing a “desk audit” of a sample of LEA comparability determinations each year. ADE’s
sample would include both LEAs that were required to submit a comparability assurance
(biennial filers) during the year and LEAs in a non-filing status that year. ADE would require
each LEA selected for review to submit copies of their comparability worksheets and to
complete a brief questionnaire documenting the LEA’s comparability methodology and data
sources.

OIG Response. The Department will need to evaluate whether ADE’s approach to comparability
monitoring (sampling) complies with the Department’s biennial monitoring requirement. If
ADE’s approach does comply, the Department should consider requiring ADE to provide its
sampling methodology for Departmental review to ensure that an appropriate mix of LEAs will
be reviewed each year. The Department should also consider requiring ADE to obtain, evaluate,
and analyze LEAs’ supporting documentation (i.e., source for amounts used in calculations) as
part of its desk audit procedures.

Recommendation 1.5. ADE stated that an automated reminder system will be implemented to
ensure that LEAs make corrections in resource allocations when non-comparable schools are
identified at the time the biennial Assurance of Comparability is due (November 30th). The
LEAs would be required to submit, no later than May 1st, a revised comparability assurance and
documentation showing that appropriate resource adjustments were made to correct imbalances.

OIG Response. The proposed date of “no later than May 1st” may be too late in the school year to
provide time for ADE to evaluate the LEAs’ actions to correct imbalances and, if needed, initiate
further corrective action. The Department should consider consulting with ADE to determine if
an earlier date could be used for following up on actions taken by LEAs.


FINDING NO. 2 – ADE Needs to Ensure That the Three Reviewed LEAs Use
                Appropriate and Correct Data and Properly Implement the
                Comparability Requirement

In addition to the written assurances specified in the ESEA, ADE’s Comparability Workbook
identified three alternative methods (Pupil to Non-Federal Instructional Staff ratio, Per Pupil
Expenditures [Non-Federal] for Instruction, and Per Pupil Expenditures for Non-Federal
Instructional Staff Salaries) that LEAs could use to demonstrate they had met the comparability
requirement during the period covered by the audit.6 ADE made several changes to its

6
    ADE identified eight methods for demonstrating comparability in its 2006-2007 Comparability Guidelines.
Final Report
ED-OIG/A09G0020                                                                         Page 9 of 35
guidelines for performing school year 2005-2006 comparability determinations, including
specifying for the first time that LEAs should use data from around the 40th day of instruction to
calculate comparability and that comparability should be tested using actual staffing assignments
and expenditures.

Our review of school year 2005-2006 comparability determinations at the three LEAs showed
that none of the LEAs performed all aspects of the comparability process correctly or in
accordance with ADE’s Guidelines or Comparability Workbook. In all cases, LEAs used
incorrect or improper data to calculate comparability. We also noted instances in which LEAs
omitted significant data elements from their calculations, did not include all applicable grade
spans, used budget data rather than actual data to perform calculations, and/or did not maintain
documentation to support the determinations.

All Three LEAs Reviewed Made Errors
When Performing Comparability Determinations

Amphitheater, Chandler, and Mesa all used inappropriate and/or incorrect data when calculating
comparability in school year 2005-2006. In some cases, this resulted in the LEA submitting an
inaccurate Assurance of Comparability to the ADE. We determined that Amphitheater’s
elementary schools were not comparable in school year 2005-2006 even though its Assurance of
Comparability reported that they were comparable. We could not determine whether Chandler’s
schools were comparable in 2005-2006. Because Section 1120A(c)(1) of the ESEA requires that
schools be comparable in order for an LEA to receive Title I funds, the LEA would be required
to return all or a portion of Title I funds received that year if any of its schools were in fact not
comparable.

   • 	 Amphitheater certified to the ADE that it had demonstrated comparability using the Pupil
       to Non-Federal Instructional Staff ratio, but incorrectly included preschool enrollment
       figures and federally funded staff in its elementary school calculations. The preschool
       enrollment data should have been excluded because the LEA’s preschools are not funded
       through state or local sources. Federally funded personnel must be excluded from
       comparability calculations because the purpose of the ESEA comparability provision is to
       ensure that LEAs use state and local funds to provide services in Title I schools that,
       taken as a whole, are at least comparable to the services provided in schools not receiving
       Title I funds. ADE’s Comparability Workbook instructed LEAs to “[e]xclude staff paid
       with Title I or other Federal funds.” An Amphitheater official stated that both errors
       resulted from oversights when performing the comparability determinations. As shown
       in Attachment 1 to this report, our recalculation of Amphitheater’s 2005-2006
       comparability determination, in which the preschool enrollment data and federally funded
       staff were excluded, showed that four of its elementary schools were not comparable. As
       a result, the LEA may need to return all or part of the $3,064,703 of Title I funding it
       received in 2005-2006.

       Amphitheater also incorrectly used budgeted staffing data to prepare its comparability
       determination in school year 2005-2006. ADE’s instructions to LEAs stated that
       “[c]omparability should be tested on actual (not budgeted) data…” and “…LEAs should
       use a date around the 40th day of the school year to test comparability based on actual
       staffing assignments….” The staff allocation report used by the LEA to calculate the
Final Report
ED-OIG/A09G0020                                                                                    Page 10 of 35
        Pupil to Non-Federal Instructional Staff ratio represented a staffing projection prepared
        before the beginning of the school year, rather than the actual staffing assignments at the
        LEA’s schools at the time comparability was calculated. According to an Amphitheater
        official, the projections used in its calculations almost always reflect the actual staff
        assignments at its schools.7 However, Amphitheater did not verify that the projections
        reflected the actual staffing at the school sites when performing the comparability
        determination around the 40th day of the school year. The LEA official stated that the
        LEA’s accounting system is not capable of generating the actual staffing information
        needed to calculate comparability. We could not determine whether the use of staffing
        projections caused additional inaccuracies in the LEA’s comparability determination.

    • 	 Chandler certified to the ADE that its schools were comparable using the Pupil to
        Non-Federal Instructional Staff ratio in school year 2005-2006, but used inappropriate
        staffing data to prepare its calculations. While Chandler used 40th school day student
        enrollment data in its calculations, it used 80th school day staffing data. ADE instructed
        LEAs to “…use a date around the 40th day of the current school year to test
        comparability….” Chandler’s own comparability procedures also state that “the date that
        each data element is pulled will be the same, to the extent possible” and that “[t]he
        district will strive to use the 40th day of the school year as its designated date.” The
        Department’s April 1996 guidance did not address the timing of data used to calculate
        comparability, but its revised comparability guidance (May 2006) states that “[a]n LEA
        should be consistent with regard to what day of the year the data collected reflect.”
        ADE’s Comparability Guidelines for school year 2006-2007 instruct LEAs to test
        comparability based on 40th day average daily membership.8

        Chandler also did not maintain documentation to support the staffing data used to prepare
        its comparability determination in school year 2005-2006. In addition, Chandler revised
        the staffing figures obtained from its data system but did not document the rationale for
        the adjustments.

        Because Chandler did not use comparable date data and did not maintain documentation
        supporting the staffing counts it used to calculate comparability, we could not determine
        if Chandler’s schools were comparable or the LEA’s Assurance of Comparability was
        accurate. While Chandler did provide us with a revised comparability determination, we
        did not evaluate the revised determination because the LEA again used 80th day staffing
        data. As a result, we could not determine whether the LEA complied with the
        comparability requirement, and thus whether the LEA would need to return all or a part
        of the $2,991,584 of Title I funding it received in 2005-2006.

    • 	 Mesa certified that its schools were comparable in school year 2005-2006 under all three
        methods identified in ADE’s Comparability Workbook but it made incorrect assertions
        under two methods and incorrectly calculated the ratio for the third method.


7
 Amphitheater’s school principals were asked to review the staffing allocations before the school year began and to
provide input if they determined that adjustments to the staffing levels were needed.
8
  Arizona uses the term “membership” in lieu of enrollment. See Footnote 9 in the Other Matter section of this
report for Arizona’s statutory definition of Average Daily Membership.
Final Report
ED-OIG/A09G0020                                                                   Page 11 of 35
          o 	Mesa’s certification that its schools were comparable using the Pupil to
             Non-Federal Instructional Staff ratio was inappropriate because its elementary
             schools were not comparable under the method. A Mesa official told us the LEA
             cited this method as demonstrating comparability for its middle schools only.

          o 	Mesa’s certification that its schools were comparable under the Per Pupil
             Expenditures [Non-Federal] for Instruction method was inappropriate because the
             LEA did not include expenditures for instructional staff salaries when it
             calculated the ratio. Mesa officials could not explain why this method was cited
             on its Assurance of Comparability.

          o 	When calculating the Per Pupil Expenditures for Non-Federal Instructional Staff
             Salaries ratio, Mesa incorrectly included enrollment and staff salary data
             for preschools that did not meet Arizona's definition of a school. The Arizona
             Revised Statutes defines “school” as “any public institution established for the
             purposes of offering instruction to pupils in programs for preschool children with
             disabilities, kindergarten programs or any combination of grades one through
             twelve.” Mesa incorrectly included regular education preschool data in its
             calculations.

              Our recalculation with the regular education preschool data excluded
              demonstrated that the LEA’s schools were, in fact, comparable under the Per
              Pupil Expenditures for Non-Federal Instructional Staff Salaries method. Thus,
              Mesa’s Assurance of Comparability was accurate for one of the three methods
              and the LEA was eligible to receive Title I funds in school year 2005-2006.

All Three LEAs had Deficiencies in
Their Comparability Procedures

Our review showed that the LEAs either had not developed written procedures or had
inappropriate requirements in their procedures. Title I, Part A, Section 1120A(c)(3)(A) of the
ESEA requires LEAs to develop procedures for compliance with the comparability requirement.
ADE’s Comparability Workbook for school year 2005-2006 states “[e]ach LEA/District is
responsible for developing procedures for compliance with the comparability requirement and
for implementing those procedures annually.”

   • 	 Amphitheater’s comparability procedures instructed staff to use data from the staff
       allocation report, which does not conform to ADE’s instruction that LEAs should use
       actual staffing data to test comparability.

   • 	 Chandler’s comparability procedures allow the LEA to make resource adjustments as late
       as the beginning of the second semester to correct imbalances at non-comparable schools.
       This procedure does not conform to ADE’s instruction that comparability adjustments
       should be made early in the school year.

   • 	 Mesa has not developed procedures for compliance with the comparability requirement.
       The analyst performing the comparability determination had notes covering parts of the
Final Report
ED-OIG/A09G0020                                                                      Page 12 of 35
        comparability process in the LEA’s files, but formal procedures were not developed as
        required by the ESEA.

ADE’s school year 2006-2007 comparability instructions provide further clarification to LEAs
on how to properly implement the comparability requirement, which included the adoption of
written procedures. For example, ADE has instructed LEAs to adopt written procedures that
include a yearly timeline for demonstrating compliance, identification of the office responsible
for making the calculations, choosing the measure and process used to determine whether
schools are comparable, and how and when the LEA makes adjustments in schools that are not
comparable. However, additional clarification is still needed. ADE needs to instruct LEAs on
when it is appropriate to include preschool enrollment and expenditure data in comparability
determinations. ADE should also instruct LEAs to ensure that they are consistent with regard to
the date all data used in comparability determinations reflects, such as the 40th day of the school
year.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require the
ADE to —

2.1 	   Provide sufficient and verifiable documentation to support compliance with the
        comparability of services provision or return to the Department that portion of the
        $3,064,703 in Title I, Part A, funds that Amphitheater allocated to non-comparable
        schools in the 2005-2006 school year.

2.2 	   Instruct Chandler to a) perform its comparability determination for school year
        2005-2006 using comparable date data, e.g. data as of the 40th day of instruction per
        ADE’s own guidelines, and b) provide sufficient and verifiable documentation to support
        compliance with the comparability of services requirement or return to the Department
        that portion of the $2,991,584 in Title I, Part A funds that Chandler allocated to non-
        comparable schools in school year 2005-2006.

2.3 	   Review all three LEAs’ comparability determinations for school year 2006-2007 to
        determine whether the LEAs performed and documented the determination adequately,
        including the use of correct and appropriate data, and take any necessary corrective action
        if deficiencies are identified.

2.4 	   Ensure that all three LEAs revise or develop, as applicable, written comparability
        procedures that conform to the ESEA comparability provision and ADE requirements,
        including the use of consistent data (comparable dates), and that provide for the
        implementation and documentation of timely and appropriate resource adjustments when
        non-comparable schools are identified.

2.5 	   Advise all LEAs operating in Arizona of the findings discussed in this report and instruct
        the LEAs to review their school year 2006-2007 comparability procedures and
        methodology to ensure similar errors were not made. If similar errors are identified,
        LEAs should be required to ensure their schools are comparable after correction of the
        errors and take appropriate corrective action if non-comparable schools are identified.
Final Report
ED-OIG/A09G0020                                                                    Page 13 of 35
2.6 	   Ensure that future guidelines to LEAs clarify when it is appropriate to include preschool
        data in comparability calculations and that LEAs need to ensure comparable date data are
        used.

ADE Comments and OIG Response

ADE commented on each of our recommendations and described the corrective actions taken or
planned. When ADE disagreed or only partially concurred with a recommendation, or in cases
where we determined ADE’s corrective action may not be sufficient, we have provided a
response.

Recommendation 2.1. ADE stated that Amphitheater, through coordination among its
departments, was able to export the staffing data from its software systems that was needed for
the comparability determination. ADE also stated that Amphitheater demonstrated that its
schools were comparable for school year 2005-2006 when it used the corrected staffing data.

OIG Response. Given the multiple problems we identified with Amphitheater’s original
determination, the Department should obtain and review Amphitheater’s revised comparability
worksheets and supporting source documentation to ensure that the revised comparability
determination includes the appropriate staffing and enrollment data. Attachment 1 of this report
shows the revised school enrollment data obtained during our review (excludes preschool
enrollment).

Recommendation 2.2. ADE stated that Chandler prepared revised comparability calculations
using source data from the 40th day of instruction and determined that its schools were
comparable for school year 2005-2006.

Recommendation 2.3. ADE states that it has discussed the school year 2006-2007 comparability
requirements with all three LEAs. Based on these discussions and its reviews of the LEAs’
comparability procedures and calculations, ADE is satisfied that the three LEAs are now making
reliable comparisons of their schools.

Recommendation 2.4. ADE stated that the three LEAs now have comparability procedures in
place that conform to ADE’s specifications and reflect the intent of the ESEA.

Recommendation 2.5. ADE states that it is confident that the target LEAs understand how to
perform comparability determinations properly.

OIG Response. The intent of Recommendation 2.5 was that ADE communicate the
comparability findings noted at the three LEAs to the other LEAs in the State. We have revised
the wording of the recommendation to clarify our intent.

Recommendation 2.6. ADE states that it will clarify in its guidelines when LEAs can include
preschool data in comparability calculations and that LEAs should use matching date data in
their calculations.
Final Report
ED-OIG/A09G0020                                                                                 Page 14 of 35


                                          OTHER MATTER 



ADE’s Comparability Guidelines and Comparability Handbook for school year 2006-2007
instruct LEAs to use 40th day Average Daily Membership (ADM) when performing
comparability determinations.9 The 40th day ADM is simply an average of each school’s daily
enrollment of full-time and part-time students over the first 40 school days. Because individual
school enrollment can vary significantly during the first few weeks of school, ADM may not
reflect the true enrollment at schools once enrollment has stabilized. When we compared 40th
day ADM data to actual 40th day enrollment for Chandler’s elementary schools we found that
actual 40th day enrollment exceeded 40th day ADM by 9.6 percent, or nearly 1,600 students.
Two of the three LEAs we reviewed used actual 40th day student enrollment data when
performing comparability determinations. Use of ADM may result in distorted comparability
results because the LEA would be comparing less accurate, and not actual, average daily
enrollment to actual data, such as the actual instructional staff assigned to schools as of the 40th
day. ADE should consider revising its comparability guidelines to instruct LEAs to use actual
40th day enrollment data beginning with school year 2007-2008.

In its comments on the draft report, ADE stated that its Comparability Guidelines for school year
2007-2008 will instruct LEAs to use actual enrollment data if actual staffing or expenditures are
used for the comparability calculations. LEAs will be instructed to use average enrollment
figures if average staffing or expenditures are used.




                    OBJECTIVES, SCOPE, AND METHODOLOGY 



Our audit objectives were to determine whether the ADE (1) monitored LEAs’ compliance with
the ESEA, Title I, Part A Comparability of Services provision and (2) ensured that the LEAs
were reporting complete and accurate comparability information to ADE. The audit covered the
period July 1, 2004, through June 30, 2006. At the LEAs, we limited our detailed review to
school year 2005-2006, but we did obtain comparability information covering school year
2004-2005 to ensure that the LEAs were performing comparability determinations annually.

To achieve our objectives, we gained an understanding of the applicable ESEA provision,
Federal regulations, Department guidance, and ADE guidelines and instructions provided to
LEAs. We interviewed officials and staff at ADE’s Academic Achievement Division,
Amphitheater Public Schools, Chandler Unified School District, and Mesa Public Schools. We
also interviewed U.S. Department of Education officials responsible for monitoring SEA and
LEA compliance with Title I provisions, including comparability of services, and reviewed

9
  As defined in Title 15, Section 901(A)(2) of the Arizona Revised Statutes, "Average Daily Membership" means
the total enrollment of fractional students and full-time students, minus withdrawals, of each school day….”
“Withdrawals include students formally withdrawn from schools and students absent for ten consecutive school
days, except for excused absences….”
Final Report
ED-OIG/A09G0020                                                                                  Page 15 of 35
Department monitoring reports related to ADE as well as ADE’s responses to the monitoring
report findings. In addition, we reviewed audit reports prepared by the Arizona Auditor
General’s Office and external auditors responsible for conducting single audits of the three
selected LEAs.

To determine whether ADE monitored LEA compliance with the comparability requirement, we
obtained information on the monitoring activities ADE has implemented through inquiry,
observation, and inspection of documentation and records. Specifically, we reviewed
comparability guidelines, workbooks, and worksheets ADE provided to LEAs for the period
covered by our audit. We also tested ADE’s monitoring of LEA compliance with the
comparability provision by reviewing a judgmental sample of 10 files that ADE personnel had
prepared in relation to its review of about 70 LEAs’ comparability determinations in 2005 (its
review covered school year 2004-2005) and by reviewing other records ADE maintained related
to LEA monitoring. We selected these 10 files based on the amount of Title I funding allocated
to each LEA in school year 2004-2005.10

To determine whether LEAs were reporting accurate and complete comparability information to
ADE, we conducted reviews at three LEAs that were judgmentally selected based on the size of
the LEA (student enrollment), the total number of schools versus the number of Title I schools,
and the amount of Title I funding allocated to the LEA in school year 2004-2005. At each LEA,
we performed detailed review procedures for school year 2005-2006 that included (1) ensuring
that the LEA submitted a complete Assurance of Comparability to ADE at least every other year,
(2) testing each LEA’s comparability determination by checking the accuracy of calculations on
comparability worksheets and tracing a judgmental sample of selected schools’ (Title I and non-
Title I) comparability data to supporting documentation, and (3) reviewing documentation for
resource adjustments made to correct situations in which an LEA had identified non-comparable
schools.

We also gained an understanding of ADE’s and the selected LEAs’ internal control structure,
policies, procedures, and practices applicable to the comparability of services requirement under
ESEA Title I, Part A.

We relied, in part, on computer-processed data used by ADE to monitor LEA compliance with
the comparability provision and by the LEAs to perform their comparability determinations. At
ADE, the computer-processed data included the Assurance of Comparability that LEAs
submitted electronically, via ADE’s “Common Logon” website, and other electronic files
tracking LEA compliance with the comparability requirement. At the LEAs, the
computer-processed data included student enrollment data, personnel data, and other data
maintained on LEA computer systems. We gained a limited understanding of the related
computer system controls by making inquiries with appropriate information systems and other
personnel. We also obtained information on ADE and LEA procedures designed to ensure the
validity and reliability of data maintained in these systems. We concluded that the
computer-processed data we used was sufficiently reliable for the purposes of our audit.

10
  The top 10 LEAs in terms of Title I funding, with the exception of Tucson Unified School District and Roosevelt
Elementary School District, were identified for this sample. These two LEAs were excluded because they were the
subject of Department monitoring in April 2005. If any of the top 10 LEAs were not included in ADE’s review, we
substituted with the next highest funded LEA until we had identified 10 that were included in ADE’s review.
Final Report
ED-OIG/A09G0020                                                                      Page 16 of 35
We performed our fieldwork at ADE’s administrative offices in Phoenix, Arizona,
Amphitheater’s administrative offices in Tucson, Arizona, Chandler’s administrative offices in
Chandler, Arizona, and Mesa’s administrative offices in Mesa, Arizona. An exit conference was
held with ADE on October 27, 2006. Exit conferences with Amphitheater and Chandler were
held on October 25, 2006 and an exit conference was held with Mesa on October 26, 2006. We
performed our audit in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken, including the recovery of funds, will be made by
the appropriate Department of Education officials, in accordance with the General Education
Provisions Act.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Kerri L. Briggs, Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              400 Maryland Avenue, SW
                              Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,

                                             /s/

                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachments
      Final Report
      ED-OIG/A09G0020                                                                                   Page 17 of 35
                          Attachment 1: OIG Recalculation of Amphitheater’s 

                               Elementary School Comparability Ratios



                           Amphitheater’s Original Calculations and OIG Recalculations
                             School Year 2005-2006 Comparability Determination
           (Data in the table is carried to three decimal places per instructions in ADE’s Comparability Workbook.)
                                                    OIG           Full-Time                     OIG           Was School
 Non-Title I Schools           Original                                            Original
                                                 Enrollment       Equivalent                  Calculated Comparable After
(Comparison Group)           Enrollment                                             Ratio
                                                 Calculation      Staffing (a)                  Ratio       Recalculation? (e)
Non-Title I Schools (Comparison Group)
Mesa Verde                         443.375            425.250           22.600        19.618      18.816
Donaldson                          411.675           365.250          21.100       19.511          17.310
Harelson                           510.000           507.000          27.000       18.889          18.778
Copper Creek                       812.125           807.700          41.250       19.688          19.581
Painted Sky                        775.375           773.050          39.150       19.805          19.746
           Totals                 2952.550          2878.250         151.100
Comparison Group Ratio (b)                                                         19.540          19.049

Comparison Group Ratio with 10 Percent Variance (c)                                21.494          20.954
                                                       Title I Schools
Prince                             624.450           624.775          29.400       21.240          21.251            No
Nash (d)                           598.000           598.000          28.000       21.357          21.745            No
Keeling (d)                        486.525           486.525          23.600       20.615          21.062            No
Holaway                            446.775           432.000          22.800       19.595          18.947            Yes
Rio Vista                          606.150           606.150          31.100       19.490          19.490            Yes
Walker                               591.350            590.900        28.100        21.044         21.028             No
(a)   An Amphitheater official advised us that the LEA’s accounting system could not generate actual staffing information.
      Thus, data in this column and the OIG recalculations are not adjusted for the impact of the LEA’s use of budgeted staffing
      data on the comparability of its schools.
(b)   The comparison group ratios (original and OIG recalculation) are calculated by dividing the enrollment totals by the full-
      time equivalent staffing totals.
(c)   As provided for in the Department’s guidance, ADE allows an LEA’s Title I school to exceed the comparison group ratio
      by up to 10 percent and still be considered comparable (e.g., 19.049 times 1.10 equals 20.954).
(d)   OIG calculated ratio for these two schools also includes a 0.5 FTE reduction to exclude federally funded staff incorrectly
      included in Amphitheater’s original calculations.
(e)   A Title I school is not comparable if the ratio shown in the OIG Calculated Ratio column exceeds the comparison group
      ratio with the 10 percent variance (20.954).
Final Report
ED-OIG/A09G0020                                                                Page 18 of 35




                Attachment 2: ADE’s Comments on the Draft Report

ADE’s comments include statements that we considered misleading or that required further
explanation. However, the statements were not central to ADE’s position on the findings and
recommendations. To address the statements, we embedded ED-OIG notes in the attachment to
provide relevant information and needed clarification.
                                   State of Arizona 

                                Department of Education 



                                     Tom Horne
Superintendent of
Public Instruction


                                                                    February 15, 2007



Ms. Gloria Pilotti
Regional Inspector General for Audits
United States Department of Education
Office of the Inspector General
501 I Street, Suite 9-200
Sacramento, CA 95814

RE: 	 Arizona Department of Education’s Oversight of the ESEA Title I, Part A
      Comparability of Services Requirement

Dear Ms. Pilotti:

Thank you for the opportunity to respond to your draft Audit Report. In making this
response, the Arizona Department of Education has considered the audit as a whole –
your written materials, visits, and meetings, as well as the comparability statute and
non-regulatory guidance.

To give you a complete response, it is important to understand the nature and
background of our agency.

I         INTRODUCTION

The Arizona Department of Education (ADE) has long been a leader in achieving
quality education for all students through accountability and standards-based content.
Our effort to improve schools, curriculum, and teaching has statewide support because
ADE works in partnership with other stakeholders.

In this spirit, ADE appreciates the courtesies extended by the Office of the Inspector
General (OIG) in conducting the audit with minimal intrusion. Likewise, as we address
the specific concerns brought to the attention of the United States Department of
Education (ED), our view is to work in partnership with the federal government and the
                                                                                ADE Response to OIG Draft
                                                                                             Page 2 of 17


LEAs in order to support the process of preparing students to meet the challenges
ahead.

ADE’s approach to this, and other matters, is to ask how we can best serve all the
stakeholders. ADE begins with standards, moves to training and education of the
stakeholders, monitoring implementation (along with retraining) and, if still
unsuccessful, state intervention and/or enforcement.

II      BACKGROUND

Our agency’s memory is as long as the tenure of the last program administrator. As
long as we can remember, federal regulation of comparability was weak. Research
supports this recall. See ED, Advocates Seek to Beef Up Comparability, by Andrew
Brownstein and Charles Edwards; Title I Monitor Online (2006) (Brownstein/Edwards).

At the January 2006 National Association of State Title I Director’s meeting, ED
acknowledged that there are new personnel in the Fiscal Regulation field unfamiliar
with any time that comparability was enforced. ADE staff is among these
administrators.

The last ED Fiscal Requirements Policy Guidance, in April 199611, eliminated all
language referring to state enforcement schedules and created confusion about how
frequently LEA comparability calculations were required. The 1996 guidance was in
effect during the years subject to the OIG audit (FY 2005-06). That guidance consisted
of two pages on comparability.

Apparently, prior to 1996, SEAs were required by ED to withhold Title I funds of LEAs
that were noncompliant in the fall. By spring, funds of these noncompliant LEAs were
lost. States were also required to report to ED. All these state enforcement measures
were left out of the 1996 guidance. Id.

According to the Brownstein/Edwards article, in a round of federal comparability
audits that took place between 2003 and 2005,

        “The following states met requirements for comparability and had no
        recommendations: Ariz. . . . “

Arizona’s satisfactory prior performance and ED’s past actions gave Arizona no
indication of any change in ED’s enforcement effort.

11
  Now archived. Policy Guidance for Title 1, Part A: Improving Basic Programs Operated by Local Educational
Agencies – April 1996. www.ed.gov/legislation/ESEA/Title_I/fiscal.html

         1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                      ADE Response to OIG Draft
                                                                                   Page 3 of 17


Notably, no state enforcement measures, reporting, or monitoring schedules were
restored in the May 2006 Comparability Guidance.

ED-OIG Note: The Department’s May 2006 Non-Regulatory Guidance, which was issued after
our audit period, contains two questions regarding monitoring. Question B-15 states “[t]he SEA
should review LEA comparability calculations at least once every two years.” Question B-16 of
the guidance also contains this statement and adds “[t]he SEA may require that LEAs submit
comparability documentation biennially, review comparability documentation biennially as part of
the regular monitoring process, or submit comparability documentation biennially as part of a
desk audit process.”

III ARIZONA DEPARTMENT OF EDUCATION APPROACH TO
COMPARABILITY

STANDARDS

In accordance with law and guidance, ADE takes a lead role in determining how LEAs
can satisfy the federal Comparability law.12 ADE establishes approved methods for
showing comparability, sets a timetable, decides which LEAs must file in any one year
and adopts procedures for filing.

ADE reviews its standards on an annual basis. Our expectations are collected and
organized into formal Guidelines, Handbooks, Workbooks and/or Worksheets
(“reference materials”) readily available to the LEAs.

EDUCATION & TRAINING

ADE’s strategy toward disseminating the information is both formal and informal.
ADE holds an annual conference in or around October which offers formal training.
The companion PowerPoint is available at our website. Structured information is also
distributed by snail and/or email. Early mailings include highlights of the changes from
the prior year, a summary of expectations and due dates, instructions on the use of
reference materials and a direct link to the reference materials. Equally important, the
mailings and reference material all have ADE contact telephone numbers and email.

Personal contact is one of the prime pipelines for education and training. LEAs have
direct contact to the ADE Comparability program specialist as well as to their Title I
program specialists. ADE assigns at least one staff member to each Title I LEA. LEAs
may have regular telephone contact with two or more ADE compliance specialists, each
of whom is available to guide the LEA through program requirements, including
comparability.


12
     ADE’s proposed Procedures are appended.
           1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                    ADE Response to OIG Draft
                                                                                 Page 4 of 17


This hands-on approach facilitates compliance. In our partnership with the LEAs,
nearly all issues are addressed before they become problems.

MONITORING & IMPLEMENTATION

ADE’s procedures for monitoring LEA compliance with the Comparability law begin
first with establishing the policies behind our standards.

Such policies include, for example, the decision to require excluded LEAs (those with
one building per grade span) to submit an Assurance of Comparability. Doing so
creates a comparison data base to monitor compliance. A previously excluded school
that expands might be reflected more quickly on an Assurance than in ADE’s records.

Next, ADE makes periodic checks during the reporting period to evaluate the rate of
reporting. If one of these periodic checks shows, for example, a slow rate of return, a
reminder email is sent. In many cases, the ADE specialist would bring up the report
during a telephone call on another matter. The periodic checks also include review of
filed Assurances for patterns of comprehension and accuracy.

LEA feedback is encouraged and common issues can be addressed by email or a
revision in the forms.

After the reporting period, ADE follows-up with non-filers and checks of filed
Assurances continue. Inaccurate filings are rejected for correction.

In the winter, noncompliant LEAs are warned of the consequences of non-filing and
given a last chance to file. This warning usually solicits a flurry of telephone calls and
final filings.

Concurrently, ADE can request worksheets and backup documentation for the
Assurances and confirm that comparability is achieved. Most questions are resolved by
phone.

ENFORCEMENT

ADE’s primary role is to serve its constituency. This is best achieved by working with
the stakeholders, not as an adversary. Punitive action is taken only when it is
necessary.

ADE’s policy for malingerers is to withhold Title I funds. More effective however, is
ADE’s refusal to consider next year’s allocation request until all past obligations are
fulfilled.

       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                 ADE Response to OIG Draft
                                                                              Page 5 of 17


IV 	   ADAPTATIONS TO THE 2006 FISCAL REGULATION GUIDANCE ON
       COMPARABILITY

After the issuance of the May 2006 federal guidance on comparability, ADE revised its
LEA reference materials for FY2006-07 to incorporate the new recommendations. In
particular, the list of revisions includes:

•	     an emphasis on annual calculations of comparability
•	     establishment of all methods to determine comparability
•	     an emphasis on developing LEA procedures for complying with comparability
       and inclusion of a sample timetable
•	     a change to biennial reporting
•	     new worksheets that mimic the examples in the guidance
•	     moving the date of comparison from winter to fall

V	     POST AUDIT COMMENTS

The OIG was focused and direct in its purpose. The study included a careful
examination of papers in support of ADE’s comparability procedures and requirements
of its Title I subgrantees. The audit was hampered by employee turnover at ADE and at
several LEAs. Turnover is not uncommon and with each new program specialist there
is a new comparability learning curve. When the regulations and the personnel change,
it is not surprising that reconstructing prior periods is not easy.

ADE addresses the OIG draft recommendations below. In short, the auditors
recommend new or improved ADE procedures, the purpose of which is to “catch” or
avoid noncompliance such as that described at the audited LEAs.

We’ll examine this as two issues – LEA compliance and ADE procedures.

LEA COMPLIANCE

1. 	   Mesa Unified School District

ADE has received and reviewed Mesa Schools comparability source documentation for
FY2005-06 and its Comparability Procedures. In addition, ADE and Mesa staffs have
discussed comparability at length.

ADE has independently determined that Mesa schools were comparable in FY2005-06.
Further, our conversations, Mesa’s source documents and the Comparability
Procedures together demonstrate that Mesa has a solid understanding of the 2006-07


       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                      ADE Response to OIG Draft
                                                                                   Page 6 of 17


comparability standards and can accurately make calculations based on those
standards.

Mesa compared the average curriculum materials and instructional supplies
expenditures per pupil at each school. OIG required Mesa to add state and local
instructional staff expenses to the calculation. For some reason, OIG would accept an
instructional staff expense ratio, but not one based solely on materials and supplies.

By statute, the two comparisons are separate. The staffing equivalence is in Section
1120A(c)(2)(A)(ii) and the materials and supplies equivalence is in Section
1120A(c)(2)(A)(iii). The auditors accept the staffing ratio as a comparability ratio, but
reject Mesa’s materials and supplies comparison. We do not understand the logic in
accepting the staffing ratio in Section 1120A(c)(2)(A)(ii), but not accepting the
materials/supply ratio in Section 1120A(c)(2)(A)(iii).

ED-OIG Note: The calculation of average curriculum materials and instructional supplies
expenditures per pupil did not represent an ADE approved method of demonstrating
comparability in school year 2005-2006. Instead, this calculation represents a measure LEAs
would use to “test” the implementation of one component of the statutory assurance method
contained in the ESEA, i.e. whether the LEA implemented school board policies designed to
ensure equivalence in the provision of curriculum materials and instructional supplies at all
schools. However, Mesa did not certify its schools were comparable under the statutory
assurance method on its ADE required Assurance of Comparability submitted in 2005-2006.

Mesa did certify its schools were comparable under all three alternative methods identified in
ADE’s 2005-2006 Comparability Workbook, including the Per Pupil Expenditures for Instruction
method. The comparability assurance Mesa submitted to ADE for school year 2005-2006
serves as the LEA’s official certification that its schools were comparable as well as how it
demonstrated comparability. Demonstrating comparability using the Per Pupil Expenditures for
Instruction method required that the LEA include expenditures for staff salaries and benefits,
along with expenditures for curriculum materials and instructional supplies. Per ADE’s
Workbook, “these expenditures are normally recorded according to the Chart of Accounts under
the 1000 (Instruction) and 2100, 2200, 2400 (Support Services) function codes using 6100
(salaries), 6200 (employee benefits), and 6600 (supplies).”

Mesa had suggestions for ADE to improve the Assurance of Comparability and
reference materials. FY2007-08 revisions will reflect the LEA input.

2.     Chandler Unified School District

ADE met with Chandler, had numerous conversations and exchanged email concerning
their FY2005-06 comparability over several months.

ADE received source documentation and discussed the methodology used to draw the
source data. Chandler’s revised comparability calculations are now based on source
data from the same 40th day date. The student and instructional staff counts reflect an
       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                        ADE Response to OIG Draft
                                                                                     Page 7 of 17


appropriate division of federal funds from state and local funds. ADE determined that
Chandler’s revised comparability calculations show its schools are comparable for
FY2005-06.

Chandler reports that it did not have an opportunity to revise the calculations during
the Audit.

Additionally, ADE has received and reviewed Chandler’s revised Comparability
Procedures. The procedures reflect the intentions of the federal law.

As a consequence of the extensive consultations between ADE and Chandler and the
resulting revisions, Chandler is prepared to make accurate determinations in the future.

Finally, the auditor recommends that ADE require that Chandler use the 40th day ratio
for its comparison. ADE agrees that whatever ratio is used, both the numerator and the
denominator must be based on the same date.

With regard to setting the 40th day in particular, it is left to ADE, not OIG or ED, to
“establish deadlines for comparability determinations” that allow the LEA to make
corrections “during the current school year” (p. 28, 2006 Non-Regulatory Guidance Title I
Fiscal Issues). ADE urges ED to respect local discretion in setting this deadline.

ED-OIG Note: The report does not recommend any specific deadline for LEA completion of
comparability determinations or submission of the Assurance of Comparability to ADE. In fact,
the OIG recognized ADE’s authority to set deadlines for comparability determinations in the
introductory paragraph of the AUDIT RESULTS section of the report. In that section, we state
that “ADE required LEAs to document compliance with the comparability requirement earlier in
the school year when it moved the date LEAs must submit the Assurance of Comparability from
January 14, 2005 for school year 2004-2005 to November 30, 2006 for school year 2006-2007.”
Also, the report did not recommend that ADE specify that LEAs use 40th day data for their
comparability determinations. ADE’s own guidance to LEAs for 2005-2006 instructs LEAs to
“…use a date around the 40th day of the current school year to test comparability….”
Furthermore, Chandler’s own comparability procedures state that “[t]he district will strive to use
the 40th day of the school year as its designated date.” We revised the wording in
Recommendation 2.2 to clarify that the 40th day was an ADE guideline.

3.     Amphitheater Public Schools

ADE also consulted with Amphitheater at length in order to understand the underlying
comparability issues. Amphitheater made volumes of data available to ADE at a
Tucson meeting. Upon review, ADE determined that Amphitheater had a good
understanding of comparability and calculations, but had issues in sorting the original
data.



        1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                   ADE Response to OIG Draft
                                                                                Page 8 of 17


We discussed the appropriate division of federal funds from state and local funds. A
large part of this process included distinguishing among accounting expense systems
and coding.

In order to evaluate staffing levels, Amphitheater needed more coordination among
departments. By exporting data from a software system coded to fiscal accounts by
instructional staff assignments instead of the system that reports allocations,
Amphitheater created the needed report of actual staff.

Amphitheater reported that it did not have an opportunity to revise the calculations
during the audit.

With the correct source data plugged into the comparability worksheets, Amphitheater
proved its schools were comparable in FY2005-06. ADE also received and reviewed a
copy of Amphitheater’s conforming Comparability Procedures.

4.     Cottonwood-Oak Creek, Parker, Somerton, and Window Rock Districts

Each of these four school districts claimed it was “exempt” from calculating
comparability because it had only one building per grade span. ADE is working with
the districts separately to recreate an LEA Profile sorting schools into grade spans, Title
I and non-Title I, and over/under 100 students. All districts have submitted
documentation and made preliminary comparability calculations. We also have copies
of the Comparability Procedures for three of the districts. Each of these districts is
unique and three have strong reasons for claiming exempt status.

The “grade span” designation creates a significant amount of confusion as applied to
these districts. Charts of their schools’ grade spans are appended. Only Somerton has
schools with the same grade span (K-5). The three other districts have no Title I schools
with more than 100 students that have the same grade span. Cottonwood-Oak Creek
has school grade spans K-2, 3-5, 6-8, K-5, and K-8. Parker schools have grade spans K-3,
4-6, 7-8 (non-Title I) and K-6. Window Rock Unified has grade spans K-3, 4-6, 7-8, K-6
and 9-12. The district schools have overlapping grades. There is a legitimate argument
that schools do not have overlapping grade spans. K-3 and 4-6 are not overlapping grade
spans. K-8 has overlapping grades with the K-3 and the 4-6 school. But a K-8 grade
span comparison to a K-3 school is troubling. Singling out the K-3 grades served in the
K-8 school is a grade comparison, which is not within the scope of comparability law.

In order to determine comparability, only a grade-to-grade comparison (vs. a grade
span to grade span) makes sense under these circumstances.



       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                            ADE Response to OIG Draft
                                                                                         Page 9 of 17

ED-OIG Note: LEAs with overlapping, but not identical, grade spans have the option to perform
comparability determinations on a school-by-school basis under Section 1120A(c)(1)(C) of the
ESEA.

To conclude all matters, each of the seven LEAs has made or will make any required
corrections and re-submit its Assurance of Comparability for FY2005-06.

ED-OIG Note: The seven LEAs that ADE mentioned in the above statement represent the
three LEAs we reviewed during the audit (Amphitheater, Chandler, and Mesa) as well as the
four additional LEAs (Cottonwood-Oak Creek, Parker, Somerton, and Window Rock) we
identified in Finding 1 that should not have claimed exempt on their school year 2004-2005
Assurance of Comparability.

ADE NUMBERED RESPONSE

The statutory comparability requirements are brief. There are no formally adopted
Rules or Regulations to instruct the federal, state or local agencies. Non-regulatory or
policy guidance is advisory. It would seem that the fiscal years subject to audit, FY2005-
06, would follow the Policy Guidance for Title 1, Part A: Improving Basic Programs Operated
by Local Educational Agencies - April 1996. OIG does not disclose which monitoring
procedure they used; however, the specificity of the Recommendations suggests that
something more stringent than even the May 2006 Non-Regulatory Guidance applied.

The other resource is the Student Achievement and School Accountability Programs (SASA)
Monitoring Plan for Formula Grant Programs. This plan is the monitoring protocol for
onsite visits that tells SEAs and LEAs what to expect from a federal monitoring event.
A federal report based on SASA monitoring protocol would contain “Acceptable SEA
Evidence” called “Indicators.” The SASA Indicators for SEAs are satisfied by ADE. The
actual OIG audit had a significantly greater scope and depth than a monitoring visit.

In January 2006, the director of SASA, Jackie Jackson, acknowledged that there were so
many new Title I directors that she “didn’t think they know the finer points about fiscal
issues.” Brownstein/Edwards. The OIG Audit on the other hand targeted finer points.

1.1	   Require the four LEAs that incorrectly assessed their comparability status as exempt to perform
       comparability determinations and provide sufficient and verifiable documentation to support
       compliance with the comparability of services requirement. If the LEAs cannot demonstrate
       comparability at all schools or fail to provide the required documentation to support compliance,
       ADE should return to the Department that portion of the $4,129,628 in Title I, Part A funds
       applicable to any LEA’s schools that failed to demonstrate comparability in school year 2004-
       2005.

ADE contacted the four LEAs (again) and received a large amount of documentation.
The LEAs are working cooperatively with ADE to correct inaccuracies, resolve the
grade span issue, and prove comparable where appropriate.
       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                              ADE Response to OIG Draft
                                                                                          Page 10 of 17

1.2 	   Implement procedures to ensure that LEAs claiming to be exempt from performing a
        comparability determination have made the correct assessment.

1.3 	   Implement procedures to confirm that all LEAs are submitting the required Assurance of
        Comparability at least every other year.

1.4	    Implement a biennial process for reviewing LEA comparability determinations, including the
        development of specific review guidelines that require confirmation that data used in the
        determination is supported by appropriate LEA records.

1.5 	   Monitor the actions taken by LEAs when ADE becomes aware of situations in which non-
        comparable schools have been identified.

To the extent possible, ADE has all the procedures recommended in 1.2-1.5 in place.

ADE uses its best efforts to monitor Arizona’s 500 LEAs. The standard recommended –
100% compliance – is nearly impossible and inefficient to meet.

ADE’s procedures are best stated in the section describing our approach to
comparability. In addition, ADE will incorporate automated checks as technology is
improved. These checks and revisions follow.

We believe our procedures are reasonable given the enormity of the task.

2.1 	   Provide sufficient and verifiable documentation to support compliance with the comparability of
        services provision or return to the Department that portion of the $3,064,703 in Title I, Part A,
        funds that Amphitheater allocated to non-comparable schools in the 2005-2006 school year.

This is complete.

2.2 	   Instruct Chandler to a) perform its comparability determination for school year 2005-2006 using
        40th day staffing data and b) provide sufficient and verifiable documentation to support
        compliance with the comparability of services requirement or return to the Department that
        portion of the $2,991,584 in Title I, Part A funds that Chandler allocated to non-comparable
        schools in school year 2005-2006.

Chandler revised its calculations upon the recommendations of OIG and provided to
ADE documentation supporting their calculations. With regard to the 40th day
comparability point, the ADE guidelines at that time stated that “[d]ocumentation must
be completed and filed no later than the ADE notification deadline each year.” To point
out again, establishing deadlines for comparability determinations is a matter of State
discretion, not federal control.

2.3 	   Review all three LEAs’ comparability determinations for school year 2006-2007 to determine
        whether the LEAs performed and documented the determination adequately, including the use


        1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                               ADE Response to OIG Draft
                                                                                           Page 11 of 17

        of correct and appropriate data, and take any necessary corrective action if deficiencies are
        identified.

2.5 	   Advise all LEAs of the findings discussed in this report and instruct the LEAs to review their
        school year 2006-2007 comparability procedures and methodology to ensure similar errors were
        not made. If similar errors are identified, LEAs should be required to ensure their schools are
        comparable after correction of the errors and take appropriate corrective action if non-
        comparable schools are identified.

ADE and the LEAs have discussed the new and the prior Comparability guidelines in
detail. Based on these conversations, review of the data, comparability procedures, and
recalculations, ADE is satisfied that the target LEAs are now making reliable
comparisons and will continue to do so.

2.4 	   Ensure that all three LEAs revise or develop, as applicable, written comparability procedures that
        conform to the ESEA comparability provision and ADE requirements, including the use of
        consistent data (comparable dates), and that provide for the implementation and documentation
        of timely and appropriate resource adjustments when non-comparable schools are identified.

This is complete.

2.6 	   Ensure that future guidelines to LEAs clarify when it is appropriate to include preschool data in
        comparability calculations, that LEAs need to ensure comparable date data is used, and that a
        single method must demonstrate comparability across all schools and grade spans.

ADE will clarify preschool inclusion and matching date data for comparison ratios.

ADE does not plan to limit LEAs to a single method approach to demonstrate
comparability. Nothing in the statute or the Federal guidance requires the use of a
single method. In fact, the recognition of grade spans indicates that LEAs use resources
at grade spans differently. If schools may use different allocation methods based on the
grade span, different comparability methods should also be applicable.

Moreover, it makes no sense to restrict the choice of methods based on the number of
schools in an LEA. Single site Title I LEAs are all exempt from proving comparability.
Plus, Question B-8 in the 2006 Guidance specifically approves of the use of different
methods for charter schools operating within an LEA. In Arizona, multiple site school
districts could dodge the single method approach by turning each school into a single
site LEA (charter). This falls at a time when the State is moving toward increasing
efficiency and efficacy by unifying school districts. The single method limit effectively
encourages LEAs to disaggregate. ADE opposes this recommendation.

ED-OIG Note: The recommendation that LEAs should be instructed by ADE to use a single
method to demonstrate comparability across all schools and grade spans was eliminated in the
final report.

        1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                   ADE Response to OIG Draft
                                                                               Page 12 of 17


OTHER REVISIONS:

      OIG suggested changing the student count used in per pupil calculations from
      the 40th day “ADM” to “actual enrollment.” OIG did approve of ADE’s change
      from a December/January count to the 40th day.

ADE will revise 2007-08 guidelines in order to ensure that the ratios contain date
“matched” data. LEAs will be instructed to use actual enrollment if actual staffing or
expenditures for the same date are used. Conversely, LEAs will be instructed to use
average enrollment if average staffing or expenditures for the same data are used.


CONCLUSION

The Arizona Department of Education has shown its compliance with the
Comparability provisions of the Fiscal Requirements Policy (April 1996) in effect during
the years (2005-06) evaluated by the OIG.

Therefore, the Arizona Department of Education requests that the Assistant Secretary of
Education –

   • 	 Find that ADE was in compliance with the Fiscal Requirements Policy for
       Comparability (April 1996) in effect for the years audited by the Office of the
       Inspector General and find that no further action be taken.

   • 	 Find that ADE provided guidance to the LEAs describing the approved
       procedures for determining comparability, that it sampled comparability reports
       comparing Title I schools to non-Title I schools and that it monitored
       comparability every two years.

   • 	 Find that ADE is requiring Mesa Schools, Chandler Unified School District,
       Amphitheater School District, Cottonwood-Oak Creek School District, Parker
       Unified School District, Somerton Unified School District, and Window Rock
       Unified School District to perform comparability determinations and provide
       documentation to support compliance or prove an exemption.

   • 	 Approve ADE’s proposed Procedures for Monitoring Comparability.

   • 	 Find that it is reasonable for the SEA and the LEAs to prospectively rely on the
       non-regulatory guidance issued by the Department of Education.


       1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                  ADE Response to OIG Draft
                                                                              Page 13 of 17


    • 	 Find that it is reasonable for the SEA and the LEAs to prospectively rely on the
        SASA Monitoring Plan for Formula Grant Programs issued by the Department of
        Education.

Sincerely,

Margaret Garcia Dugan
Deputy Superintendent for Public Instruction



cc: 	   Donna Simon, Research & Evaluation
        Mesa Public Schools

        Tim Frey, Director of Research & Federal Projects 

        Chandler Unified School District 


        Thomas Collins, Director of State and Federal Intervention Programs
        Amphitheater Public Schools

        David Snyder, Director of Business Services 

        Cottonwood-Oak Creek School District 


        Sandra Cooke, Curriculum Director 

        Parker Unified School District 


        Cathy Witmer, Director of Finance
        Somerton School District

        Jennifer Wilson, Federal Projects Coordinator 

        Window Rock Unified School District 





        1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                 ADE Response to OIG Draft
                                                                             Page 14 of 17


                ARIZONA DEPARTMENT OF EDUCATION 

         ADVANCING TECHNOLOGY COMPARABILITY PROCEDURES 


1.    Ensure that all LEAs that are required to submit Assurances have filed

ADE Operations Unit will email LEAs in August or September notifying them that
the current year Guidelines for Comparability are available at the ADE website.
This is followed in late September by a notice that the Assurance is available
through the Common Logon and has a November 30th due date. Approximately a
week prior to the due date, an automated reminder will be emailed to nonfilers.

ADE Title I Division will include the Comparability Assurance in its summer/fall
annual list of required submissions for all monitored LEAs, among other filings.
This will be posted at the Title I section of the ADE website.

After the due date, the Operations Unit queries the database to generate a list of
LEAs that failed to submit the required Assurance and sends an automated
targeted “Late Notice” to these LEAs within 7 days. After another 14 days,
malingerers are sent an automated “Warning” that funds will be withheld and given
a date certain to file.

With emerging technology, ADE will initiate a time table to hold funds by January
1 of the fiscal year if the Assurance is not filed. This will become permanent at year
end if the LEA is noncompliant.

2.    Ensure that exclusions/exemptions claimed by LEAs are accurate

There will be a two-fold procedure to verify exclusions and/or exemptions.

First, ADE Operations Unit will query the data base for claimed exemptions and
exclusions. ADE will query the same group from another ADE data base to make
the needed confirmations. This comparison should be fully automated.

If the claims are inaccurate, ADE will send an automated email including the data
we have on record that justify inclusion and require that the comparison be
recalculated or funds withheld as in #1 above. Follow up as above.

3.   Ensure that comparability analysis is done and paperwork shows
comparability

ADE will require that a sample of biannual filers submit their worksheets in the
year of filing. ADE will also require that a sample of LEAs submit their worksheets
in the non-filing year. ADE will develop a one-page questionnaire about the
methodology used and the data sources.

These documents will be subject to a desk audit by the Operations Division.
      1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                ADE Response to OIG Draft
                                                                            Page 15 of 17




The desk audit will check –
  • accuracy of profile
  • selection of appropriate method
  • matching method to worksheet
  • compliance questionnaire asking about sources/dates for counts/expenses
  • comparability for all Title I schools

ADE will confer with LEAs subject to desk audit. Non-complying LEAs will have an
opportunity to correct by a date certain as above.

4.    Ensure that corrections are completed when schools are not in compliance

ADE will establish an automated reminder system to occur in April. LEAs that
were out of compliance on November 30th will be required to submit a Revised
Assurance on May 1st along with worksheets/narrative demonstrating reallocations
of resources.




      1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                  ADE Response to OIG Draft
                                                                                Page 16 of 17




                    FY 2005-06 October Enrollment Report Summary
      Title
        I
                                                           Grade
              WINDOW ROCK USD                      Total   Span
       x      Window Rock Elementary School         550          K-6
              Integrated Preschool                   16        PreK
              Tse Ho Tso Intermediate Learning
       x      Center                                294          4-6
       x      Tse Ho Tso Primary Learning Center    331          K-3
       x      Tse Ho Tso Middle School              467          7-8
       x      Navajo Immersion                      202          K-7
       x      Sawmill Elementary School              45          K-3   under 100
       x      Window Rock High School               824        9-12    only one HS


              COTTONWOOD-OAK CREEK ED**
       x      Cottonwood Elementary School          517          3-5
       x      Cottonwood Middle School              736          6-8
       x      Oak Creek School                      339          K-8
       x      Dr Daniel Bright Elementary School    523          K-2
       x      Tavasci Elementary School             388          K-5


              PARKER USD                                               served
       x      Blake Primary School                  461          K-3   1-3
       x      Wallace Elementary School             320          4-6   5th
       x      Le Pera Elementary School             355          K-6   1-3
              Wallace Jr High School                240          7-8
              Parker High School                    579        9-12
              Parker Alternative School              46        9-12    under 100



              SOMERTON** ED
       x      Desert Sonora Elementary School       382    K-5
       x      Orange Grove Elementary School        350    K-5
       x      Somerton Middle School                911    6-8         only one 6-8
       x      Tierra Del Sol Elementary School      729    1-5
       x      Valle Del Encanto Learning Center     224    K


      **We are confirming data on Worksheets showing Title I schools in
      these Districts are comparable.




1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
                                                                                                                                                                                     ADE Response to OIG Draft
                                                                                                                                                                                                           Page 17 of 17


                                                                    200~   2006   Di~ frl (' f    aud C h a rl f l' E Ul"olllllf llf                   u~·      G rad!'


.\.t;....                                                                                        ""' U ... I       ».\.,   MM7 _ I        "'U""," ' •.m           I" .oJ,) MIIU"... , : . ... WJI       "'It.' R   I "" :: ~




CoMo . ......!.{).l C .... l        [1._.,...,. 1);,,,;', (' -"7)
     C"""" ... ooo £ .........,,5<bool (~ m )                                                     "
                                                                                                            ,.      ~;7    : 81    ,. ,. ,.
                                                                                                                                          ~

                                                                                                                                                 m
                                                                                                                                                          :u          ,.      J::                                   :;$6
                                                                                                                                                                                                                     m
                                                                                                                                   '"
     C"" .....·ooo M;QdA S<booI (61 ,,)
     001 C...l S<hool (6111)
     0. D.... l !!riP £10"",,_ S<bool
     T~" ~ ;     . .......... ,.,. .......... (I<I" ')
                                                         (~ !2 6)                                    " " " " " " "
                                                                                                  " m" " '"" " " "  ..                                    2]9         219

                                                                                                                                                                       " "
                                                                                                                                                                              111                                    no
                                                                                                                                                                                                                     ,.
                                                                                                                                                                                                                     '"
                                                                                                                                                                                                                     '"



     P.. L., l"oiII ... !to ..... III,.... , (HI')                                                     ..    uo
                                                                                                                     '"
                                                                                                                            ,.     I"       . , ... ,. ,. .., "
                                                                                                                                                 II:                                             w
                                                                                                                                                                                                         '"           .-,
                                                                                                                                                                                                                     :' 1'
        Bb) .•r.-......,.\o:Looool(t IU )
        lI'all_ f lo __ IOY StUo! :6:")
        Lo P,.. ~.,.\6>0! .~l~",
                                                                                                       "
                                                                                                             i,~     Ii,     itl   I,)
                                                                                                                                            ,.   1:0
                                                                                                                                                           '"•
                                                                                                                                                                                                                      ),0
                                                                                                                                                                                                                      }~j

                                                                                                                 " " " " "                                              " u." u,
                                                                                                                                                     .)
        '. l .l'~ p       \UooI.,:,-,
        ",,'all>ooJ,I'...p ~ ( '"t9~
        '. l ".ur-· . ~(.,...,.,
                                                                                                                                                                       I:'
                                                                                                                                                                                          !'~    u:      B'
                                                                                                                                                                                                                      ,.'"
                                                                                                                                                                                                  " "                   "

 _         .. [I._ ..,-Dr. ~;'. ( "' (ooI)                                                         "        ,.       '"     :")    ,.      ~
                                                                                                                                                 ••       M
                                                                                                                                                                      n, ,.
                                                                                                                                                                      "' *                                          :,",
                                                                                                                                                                                                                      ,,:
      ...... , o;)~~ ( f:«                                                                                                                                ~
                                                                                                                                                                                                                      ,.
                                                                                                             " " :-1-:"" .." " ,."
      o."I. " ...~ !Jo<n,o,_~1 'W                                                                                                                "
      Joo:"'~._",,=,!O<""1·6\4II )                                                                                    "                     "
                                                                                                                                                                                                                      n:
      T_.:)oLS"n.....:..y5.tloool I6:6")                                                                        no           :'1   I :)                                                                               ":,
      \"u AI b:r.oo l . ....""'" C...", ($"))0)                                                    "        ::.                                                                                                       l):




m o4ow lloooll-.-D" ..... / U' ..
     ""......... J.o<l n-..,\o<IioooI (.·l:)
     _ ...,., r"",:-./ r m
                                                                                                   .
                                                                                                   " " "
                                                                                                            : 1'     m      :lJ
                                                                                                                             H     '"•     ,. ,.
                                                                                                                                            " "            ..
                                                                                                                                                           : 11        :5 1    ~
                                                                                                                                                                                     .'   : 16   II:     m


                                                                                                                                                                                                                       ...."...
                                                                                                                                                                                                                     :":'


     T ", lh r"~~C~ l W: ~ )
     r", ,,, r", ;>""',.,· l ......HU,fC"'.. Wi'l)
     T", " , I >t ~Ud!o Sdooo: (16)                                                                  "                       .. '.  "
                                                                                                                                                 w         lD

                                                                                                                                                                       :1"     :)0
                                                                                                                                                                                                                       Hi


                                                                                                                                                                        ,.                                             ,:.
     ""......... lo<~1'4.~W F)
     :>"..,,:::-..- (,',S::)
     ~I:_Scll.>el ( I!lll l
                                                                                                             "
                                                                                                               "
                                                                                                                             ..     "            " "
                                                                                                                                                                                     ".   , II   I I:    m
                                                                                                                                                                                                                       :xo:
                                                                                                             " "                                                                                                         "




                     1535 West Jefferson, Phoenix, Arizona 85007 • 602-542-4361 • www.ade.az.gov
